                              Report Template Version = 06-15-05_rev.08




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     HOSPITAL REPORTING

    OF DEATHS RELATED TO 

   RESTRAINT AND SECLUSION





                    Daniel R. Levinson

                     Inspector General 



                     September 2006

                     OEI-09-04-00350

                                                           Report Template Version = 06-15-05_rev.08




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by
others. Audits examine the performance of HHS programs and/or its grantees and
contractors in carrying out their respective responsibilities and are intended to provide
independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG’s internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                                                 Report Template Version = 06-15-05_rev.08




I N T R O D        U C T             I O N
Δ    E X E C U T I V E                                        S U M M A R Y                                      



                    OBJECTIVE
                    To (1) determine whether hospitals fail to report restraint and
                    seclusion-related deaths, as required, to the Centers for Medicare
                    & Medicaid Services (CMS); and (2) evaluate CMS and State survey
                    agency responsiveness, guidance, and monitoring concerning the
                    reporting requirement.


                    BACKGROUND
                    Pursuant to section 1861(e)(9) of the Social Security Act, the Secretary
                    of the Department of Health and Human Services establishes
                    Conditions of Participation (CoP) that hospitals must meet to
                    participate in the Medicare and Medicaid programs. In December 1997,
                    CMS published a proposed rule to revise all existing hospital CoPs and
                    to include a new Patients’ Rights CoP. The new CoP was, in part, a
                    response to reports of violations of patients’ rights in hospitals. The
                    new rule became final on July 2, 1999. CMS contracts with State
                    survey agencies to assess hospital compliance with these CoPs.

                    The Patients’ Rights CoP establishes, among other things, a reporting
                    requirement for all hospital deaths associated with the use of restraint
                    or seclusion for behavior management (42 CFR § 482.13(f)(7)). The term
                    restraint includes either a physical restraint or a drug used as a
                    restraint. A physical restraint is any manual method or device used to
                    restrict freedom of movement or access to one’s body. A drug used as a
                    restraint is a medication that is used to control behavior or restrict
                    movement, which is not standard treatment for a patient’s medical or
                    psychiatric condition. Seclusion is defined as involuntary confinement
                    of a patient to a room or area from which the person is physically
                    prevented from leaving. Hospitals must report deaths associated with
                    restraint or seclusion for behavior management to their CMS regional
                    office prior to close of business on the day following the event.1 This
                    provision became effective on August 2, 1999.

                    CMS requirements establish timeframes for CMS regional offices and
                    State survey agencies to ensure that (1) investigations concerning
                    hospital compliance with the Patients’ Rights CoP are timely and
                    (2) information about deaths related to restraint and seclusion is

                       1 The reporting requirement does not apply to deaths associated with the use of restraint
                    for acute medical and surgical care.



 OEI-09-04-00350    H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 i
                                                                                                Report Template Version = 06-15-05_rev.08




E X E C U T I V E                        S U               M M A R Y


                   communicated both to Protection and Advocacy agencies and to the
                   CMS central office in a timely manner. 2 The CMS central office
                   compiles a roster of deaths related to restraint and seclusion based on
                   reports that hospitals forward to regional offices.

                   To determine whether hospitals report to CMS all deaths related to
                   restraint and seclusion, we compared reports received by CMS to those
                   received by State survey agencies, Protection and Advocacy agencies,
                   and the Food and Drug Administration for deaths that occurred
                   between August 2, 1999 (when the reporting requirement became
                   effective), and December 31, 2004. We also gathered information from
                   CMS central and regional offices about CMS policies and death
                   reporting procedures, interactions with State survey agencies, record
                   keeping, and collection of information by the CMS central office.


                   FINDINGS
                   Hospitals failed to report to CMS 44 of 104 documented deaths
                   related to restraint and seclusion between August 2, 1999, and
                   December 31, 2004. We received information from CMS, State survey
                   agencies, Protection and Advocacy agencies, and the Food and Drug
                   Administration concerning 104 behavior management-related deaths
                   associated with restraint and seclusion that occurred during this time
                   period. Hospitals did not report 44 of these deaths directly to CMS. Of
                   those deaths that hospitals reported directly to CMS, fewer than
                   one-third were reported timely.
                   CMS and State survey agencies do not consistently take action in
                   response to reported deaths in a timely manner, limiting their ability
                   to address potentially harmful conditions. State survey agencies and
                   CMS regional offices regularly fail to meet CMS’s timelines for taking
                   action in response to deaths related to restraint and seclusion that are
                   reported by hospitals.
                   State survey agencies do not provide regular guidance on the
                   reporting requirement. Only 52 percent of the State survey agencies
                   indicated that, at some point, they had disseminated information to
                   hospitals about the reporting requirement. Furthermore, fewer than


                       2 Protection and Advocacy agencies, established pursuant to the Developmental

                   Disabilities Act of 1975, provide advocacy and legal representation for people with physical
                   or mental disabilities within the 50 States, the District of Columbia, Puerto Rico, and the
                   U.S. Virgin Islands.



 OEI-09-04-00350   H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                ii
                                                                                               Report Template Version = 06-15-05_rev.08




E X E C U T I V E                           S U             M M A R Y


                  20 percent of State survey agencies provide information on an ongoing
                  basis. Therefore, we conclude that hospitals may not understand fully
                  the mandatory reporting requirement.
                  CMS does not maintain comprehensive and reliable information
                  about reported deaths related to restraint and seclusion. CMS does
                  not track deaths accurately because its roster excludes relevant deaths
                  and includes others for which there is no reporting requirement. CMS
                  regional offices do not request information from other agencies about
                  hospital deaths related to restraint or seclusion, which would enable
                  CMS to identify some unreported deaths.


                  RECOMMENDATIONS
                  To improve hospital reporting, the accuracy of data, and CMS’s timely
                  identification of deaths related to restraint and seclusion, CMS should:
                  Seek legislation to establish intermediate sanctions for hospitals
                  that fail to report directly to CMS deaths related to restraint and
                  seclusion. Currently, termination is the only remedy available to CMS
                  if a hospital fails to comply with the CoP. Intermediate sanctions, such
                  as civil monetary penalties, would provide CMS with a more
                  appropriate remedy for hospitals that do not report timely and directly
                  to CMS restraint-related deaths.
                  Consider regulatory changes that would require reporting all deaths
                  related to the use of restraint and seclusion. If hospitals have
                  difficulty distinguishing between medical and behavioral restraint, it
                  may prevent them from reporting deaths as required under the current
                  reporting requirement. Requiring hospitals to report deaths related
                  both to use of restraint and seclusion for behavior management and to
                  use of restraint for acute medical and surgical care could improve
                  hospital compliance with the reporting requirement. In addition,
                  clarifying the language in the regulation that states that a hospital
                  must report deaths “where it is reasonable to assume that a patient’s
                  death is a result of restraint or seclusion” would eliminate further
                  confusion. Hospitals then would have more definitive guidance to assist
                  them in determining if a death is subject to the reporting requirement.
                  Instruct its regional offices and State survey agencies to adhere to
                  timelines. CMS will be able to respond more quickly to patient safety
                  issues if it ensures that regional offices and State survey agencies
                  adhere to required timelines. Regional offices should hold State survey


OEI-09-04-00350   H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                iii
                                                                                                Report Template Version = 06-15-05_rev.08




E X E C U T I V E                        S U               M M A R Y


                   agencies accountable for forwarding death reports and conducting
                   complaint investigations in a timely manner.
                   Encourage State survey agencies to provide to hospitals ongoing
                   training about the mandatory reporting requirement. Survey
                   agencies could disseminate information to hospital officials regarding
                   their reporting responsibilities during onsite reviews or annually.
                   Instruct regional offices to request periodic updates about deaths
                   related to restraint and seclusion from other Federal and State
                   agencies. We found that State survey agencies, Protection and
                   Advocacy agencies, and the Food and Drug Administration have
                   information regarding deaths related to restraint and seclusion for
                   which CMS had no documentation. Improving communication with
                   other agencies that receive and document deaths related to restraint
                   and seclusion would help CMS identify some deaths that hospitals did
                   not report directly to them and to maintain more comprehensive data.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS generally concurred with our recommendations. CMS is
                   considering proposing future changes that would simplify requirements
                   for hospital reporting of restraint and seclusion-related deaths. CMS
                   also indicated it will issue a Survey & Certification Memorandum to
                   ensure that regional offices and survey agencies receive written
                   instructions that reinforce the hospital death reporting timelines.
                   Furthermore, CMS will instruct its regional offices to contact
                   periodically survey agencies and other Federal agencies to request
                   information regarding restraint and seclusion-related deaths.

                   In response to our recommendation that CMS work with Congress to
                   establish intermediate sanctions for hospitals that fail to report deaths
                   related to restraint or seclusion, CMS indicated that this change would
                   be addressed most appropriately through legislative changes by
                   Congress. We modified the recommendation to clarify that CMS should
                   seek legislation that would allow CMS to impose intermediate sanctions
                   against hospitals that do not comply with the reporting requirement.




 OEI-09-04-00350   H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                iv
                                                                      Report Template Version = 06-15-05_rev.08




Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .................................... i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    Hospitals failed to report one-third of deaths . . . . . . . . . . . . . . . . 10 


                    Untimely response to reported deaths . . . . . . . . . . . . . . . . . . . . . . 11 


                    Limited guidance to hospitals. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                    Records not comprehensive or reliable. . . . . . . . . . . . . . . . . . . . . . 13 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                    Agency Comments and Office of Inspector General Response . . . 16 




         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                                                                                                 Report Template Version = 06-15-05_rev.08




    D   E S I G N     D R           A F T
  Δ         I N T R O D U C T I O N                                                   



                    OBJECTIVE
                    To (1) determine whether hospitals fail to report restraint and
                    seclusion-related deaths, as required, to the Centers for Medicare
                    & Medicaid Services (CMS); and (2) evaluate CMS and State survey
                    agency responsiveness, guidance, and monitoring concerning the
                    reporting requirement.


                    BACKGROUND
                    Medicare’s Hospital Conditions of Participation
                    Title XVIII of the Social Security Act (the Act) establishes coverage and
                    benefits under Part A of the Medicare program for inpatient hospital
                    services. Section 1861(e)(9) of the Act specifies that a hospital also must
                    meet other requirements that the Secretary of the Department of
                    Health and Human Services (Secretary) finds necessary in the interest
                    of the health and safety of the hospital’s patients. Pursuant to this
                    authority, the Secretary established the Conditions of Participation
                    (CoP), which hospitals must meet to participate in the Medicare and
                    Medicaid programs (42 CFR Part 482).

                    CMS contracts with State survey agencies to assess hospital compliance
                    with CoPs. Pursuant to section 1865 of the Act, hospitals accredited by
                    the Joint Commission on Accreditation of Healthcare Organizations (the
                    Joint Commission) or other accrediting organizations approved by CMS,
                    such as the American Osteopathic Association, are deemed to be in
                    compliance with the CoPs.3 Hospitals that are not accredited, but want
                    to participate in the Medicare and/or Medicaid programs, receive
                    certification through State survey agencies. State survey agencies
                    conduct routine hospital reviews of most nonaccredited short-term acute
                    hospitals every 3 years.4 In addition, State survey agencies are required
                    to conduct complaint surveys in response to allegations that hospitals
                    are out of compliance with CoPs.

                    In December 1997, CMS published a proposed rule to revise all existing
                    hospital CoPs and include a new Patients’ Rights CoP (62 FR 66726).
                    The new CoP was shaped, in part, by reports of patients’ rights

                      3 The Joint Commission and the American Osteopathic Association conduct onsite
                    surveys at least every 3 years.
                      4 Office of Inspector General, “CMS Oversight of Short-Term Acute Care Nonaccredited
                    Hospitals” (OEI-01-04-00020), August 2005.



OEI-09-04-00350     H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                  1
                                                                                                Report Template Version = 06-15-05_rev.08




    I N T R O D   U C T              I O N


                   violations involving illegal and harmful uses of restraint and seclusion.
                   On July 2, 1999, CMS published an interim final rule for the new
                   Patients’ Rights CoP for hospitals.5 This provision became effective on
                   August 2, 1999. Among other issues, the CoP addresses hospitals’ use of
                   restraint and seclusion. Pursuant to section 902 of the Medicare
                   Prescription Drug, Improvement, and Modernization Act of 2003, CMS
                   must publish the final rule for the Patients’ Rights CoP by December
                   2006.6
                   The Patients’ Rights CoP defines both restraint and seclusion. A
                   restraint is either a physical restraint or a drug used as a restraint. A
                   physical restraint is any manual method or device used to restrict
                   freedom of movement or access to one’s body, whereas a drug used as a
                   restraint is a medication that is not standard treatment for the patient’s
                   medical or psychiatric condition used to control behavior or restrict
                   freedom of movement. Under the Patients’ Rights CoP, seclusion occurs
                   when a patient is confined involuntarily to a room or area and
                   physically prevented from leaving.
                   Hospital Reporting Requirement for Deaths Related to Restraint and
                   Seclusion
                   The Patients’ Rights CoP contains two standards related to the use of
                   restraint and seclusion: (1) restraint for acute medical and surgical care
                   (42 CFR § 482.13(e)) and (2) restraint and seclusion for behavior
                   management (42 CFR § 482.13(f)). The behavior management standard
                   contains a reporting requirement that states, “. . . a hospital must
                   report to CMS any death that occurs while a patient is restrained or in
                   seclusion, or where it is reasonable to assume that a patient’s death is a
                   result of restraint or seclusion.”7 Under the reporting requirement,
                   hospitals must report the death to their CMS regional office prior to
                   close of business on the day following the event.8 The reporting


                     5 64 FR 36070, Medicare and Medicaid Programs; Hospital Conditions of Participation:
                   Patients’ Rights.
                     6 The Patients’ Rights CoP interim final rule will expire after December 2006 unless the
                   Secretary publishes a continuation of the regulation that indicates why CMS did not comply
                   with the standard 3-year timetable for publication of final regulations.
                       7 For the purpose of this report, we will refer to 42 CFR § 482.13(f)(7) as the “reporting

                   requirement.”
                       8 Hospitals that must report include acute care, psychiatric, rehabilitation, long term

                   care, children’s, and alcohol-drug facilities. State hospitals must report if the restraint or
                   seclusion-related death occurred in a part of the hospital that is certified for Medicare
                   participation.



OEI-09-04-00350    H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                  2
                                                                                                Report Template Version = 06-15-05_rev.08




    I N T R O D   U C T              I O N


                   requirement only applies to deaths associated with the use of restraint
                   or seclusion for behavior management, not those associated with the use
                   of restraint for acute medical and surgical care. Hospitals that fail to
                   report deaths related to restraint and seclusion are subject to
                   termination from the Medicare program under section 1866 of the Act.
                   In 1999, both the Senate and the House of Representatives introduced
                   legislation to authorize intermediate sanctions, including civil monetary
                   penalties, for hospitals’ failure to comply with CMS’s death reporting
                   requirements.9 However, neither bill was enacted.
                   Appendix A of the CMS “State Operations Manual” describes the
                   conditions under which the death reporting requirement applies.
                   Pursuant to the requirements, the behavior management standard
                   applies in “emergency or crisis situations if a patient’s behavior becomes
                   aggressive or violent, presenting an immediate, serious danger to
                   his/her safety or that of others.”10 The requirement further clarifies
                   that the behavior management standard does not apply to situations in
                   which a hospital restrains a “confused” patient who is removing his or
                   her intravenous lines or ventilator intubation tube, or a patient who is
                   “attempting to get out of bed with an unstable fractured leg.” These
                   situations, and others in which a patient is nonviolent, nonaggressive,
                   or otherwise cooperative, “may be governed” by the acute medical and
                   surgical care standard, which does not have a death reporting
                   requirement.

                   Hospitals must report any death that occurs while a patient is in
                   restraint or seclusion for purposes of behavior management and any
                   death that occurs after behavior management restraint or seclusion has
                   been discontinued and when the patient’s death could be “reasonably
                   related to that patient having been in restraint or seclusion.”11
                   However, the “State Operations Manual” does not provide specific
                   guidance for hospitals to use in determining when a patient’s death
                   should be considered “reasonably related” to restraint or seclusion use.
                   CMS Process and Death Reporting Responsibilities
                   The CMS “State Operations Manual” includes requirements, first issued
                   in a memorandum on March 23, 2000, for CMS regional offices, the


                       9 Freedom From Restraint Act of 1999 (S. 736) and Patient Freedom From Restraint Act
                   of 1999 (H.R. 1313).
                       10 CMS, “State Operations Manual,” Appendix A, section A-0075.
                       11 CMS, “State Operations Manual,” Appendix A, section A-0075.




OEI-09-04-00350    H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                  3
                                                                                               Report Template Version = 06-15-05_rev.08




    I N T R O D 
U C T              I O N


                  CMS central office, and State survey agencies concerning restraint and
                  seclusion-related death reporting.12 When a hospital reports a death
                  related to restraint or seclusion, the regional office determines whether
                  the situation involved the use of restraint or seclusion for purposes of
                  behavioral management, based on the information provided. If the
                  regional office determines that restraint or seclusion was used for
                  behavior management, the regional office authorizes the State survey
                  agency to conduct an investigation into the “hospital’s compliance with
                  the Patient’s Rights CoP at 42 CFR § 482.13 (including investigating
                  the reported death).”13
                  The CMS central office is responsible for maintaining a central roster of
                  all restraint and seclusion-related death reports and for communicating
                  with regional offices as needed until the investigations are completed.
                  The CMS central office also is required to maintain a copy of all report
                  worksheets collected from the regional offices.

                  CMS requirements establish a timeline for regional offices and State
                  survey agencies. For behavior management-related deaths associated
                  with restraint or seclusion:
                  o	 Regional offices must authorize the State survey agency to conduct
                      a complaint investigation into the hospital’s compliance with the
                      Patient’s Rights CoP within 2 working days of receiving a restraint
                      or seclusion-related death report;
                  o	 State survey agencies must forward information about hospital
                      deaths related to restraint or seclusion to their regional office the
                      same day they receive information directly from a hospital or other
                      source;
                  o	 State survey agencies must complete their investigations within 

                      5 working days of receiving the survey authorization from the 

                      regional office; and 

                  o	 Regional offices must notify the central office, the relevant State

                      Protection and Advocacy agency, and the hospital’s accrediting 

                      organization, if accredited, within 2 working days of receiving a 

                      restraint or seclusion-related death report. 




                      12CMS, “State Operations Manual,” Chapter 5, section 5240.
                      13 In accordance with the CMS “State Operations Manual,” the State survey agency
                  handles each restraint/seclusion death report as a complaint investigation.



OEI-09-04-00350   H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                  4
                                                                                                Report Template Version = 06-15-05_rev.08




    I N T R O D   U C T              I O N


                   Additional Sources of Restraint and Seclusion-Related Death Information
                   Protection and Advocacy agencies. In addition to CMS, Protection and
                   Advocacy agencies (P&As) receive and collect reports of restraint and
                   seclusion-related deaths from other sources, such as caregivers and
                   patient advocates. These agencies, established pursuant to the
                   Developmental Disabilities Act of 1975, provide advocacy and legal
                   representation for people with physical or mental disabilities within the
                   50 States, the District of Columbia, Puerto Rico, and the U.S. Virgin
                   Islands. The Developmental Disabilities Act of 1975 created the
                   Protection and Advocacy for Persons with Developmental Disabilities
                   Program (42 U.S.C. 15001). The Developmental Disabilities Act
                   mandated that each State establish its own P&A program to legally
                   protect the rights of persons with developmental disabilities. In 1986,
                   Congress passed the Protection and Advocacy for Individuals with
                   Mental Illness Act, which extended the P&A system to protect
                   individuals with mental illness (42 U.S.C. 10801). Pursuant to
                   42 CFR § 51.42, P&As have the authority to investigate deaths and
                   incidents of abuse and neglect of individuals with mental illness if the
                   incidents are reported to their systems or if there is probable cause to
                   believe that the incidents occurred.
                   Food and Drug Administration. Through the Medical Device Reporting
                   Program, manufacturers, importers, and user facilities such as hospitals
                   send reports to the Food and Drug Administration (FDA) about adverse
                   events associated with medical devices. The program requires hospitals
                   to report any death associated with a medical device, including
                   restraints, to FDA and the manufacturer within 10 working days of the
                   event. As part of its Hospital Bed Safety Work Group initiatives, FDA
                   agreed to forward restraint and seclusion-related adverse event reports
                   to CMS beginning in April 2001.14 FDA faxes the relevant reports to
                   CMS. This process is described in the CMS “State Operations
                   Manual.”15




                       14 The MEDSTAT Group, Inc., “Implementation Planning Study for the Integration of
                   Medical Event Reporting Input and Data Structure for Reporting to AHRQ, CDC, CMS, and
                   FDA, Final Report,” for the Agency for Healthcare Research and Quality, June 2002.
                   Available online at http://interprofessional.washington.edu/ptsafety/files/room_for_improve
                   .pdf. Accessed March 2006.
                       15 CMS, “State Operations Manual,” Chapter 5, section 5240.




OEI-09-04-00350    H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                  5
                                                                                                Report Template Version = 06-15-05_rev.08




    I N T R O D   U C T              I O N


                   Previous Studies on Restraint and Seclusion Reporting
                   In August 2000, the Office of Inspector General (OIG) issued an
                   evaluation entitled “Restraints and Seclusion: State Policies for
                   Psychiatric Hospitals” (OEI-04-99-00150). The report found that many
                   State policies met the CoP, but others fell short for both public and
                   private psychiatric hospitals with respect to the requirements for
                   initiating restraint and seclusion use, time limits, and patient
                   monitoring. OIG recommended that CMS work with States and
                   accreditation organizations to improve psychiatric hospitals’ compliance
                   with the Patients’ Rights CoP, with particular attention to private
                   psychiatric hospitals. CMS’s comments on the report indicated that
                   CMS already had initiated efforts to provide education and training on
                   the CoP to State survey agencies, P&As, accrediting organizations, and
                   agency staff.

                   In October 1999, the Government Accountability Office (GAO) testified
                   before the Senate Finance Committee on the topic of “Mental Health:
                   Extent of Risk From Improper Restraint or Seclusion is Unknown”
                   (GAO-T-HEHS-00-026). The testimony indicated that (1) the lack of
                   comprehensive reporting requirements makes it impossible to identify
                   all deaths related to restraint and seclusion; and (2) policies governing
                   restraint and seclusion vary among Federal programs, States, and types
                   of facilities. GAO recommended that facilities should report any injury
                   or death associated with restraint or seclusion to the State licensing
                   body and the P&A.


                   METHODOLOGY
                   Determining Hospital, CMS, and State Survey Agency Adherence to the
                   Reporting Requirements
                   To determine whether hospitals failed to report deaths related to
                   restraint and seclusion to CMS as required, we compared death reports
                   and related documentation received by CMS to those received by State
                   survey agencies, P&As, and FDA for deaths that occurred between
                   August 2, 1999 (when the reporting requirement became effective), and
                   December 31, 2004. We used CMS documentation (primarily the report
                   worksheets completed by CMS regional offices) to examine CMS and
                   State survey agencies’ adherence to timelines for receiving, processing,
                   and investigating death reports. We also conducted interviews with
                   CMS staff from its central office and the 10 regional offices that are
                   responsible for receiving and assessing hospital restraint and seclusion-
                   related death reports. The purpose of these interviews was to gather

OEI-09-04-00350    H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                  6
                                                                                               Report Template Version = 06-15-05_rev.08




    I N T R O D 
U C T              I O N


                  information about CMS policies and death reporting procedures, the

                  reporting process used by hospitals, interactions with State survey 

                  agencies, record keeping, and collection of information by the CMS 

                  central office. We analyzed the responses to these interviews to 

                  supplement information contained on the report worksheets.

                  Collecting CMS death reporting documentation. We collected information
                  about hospital deaths related to restraint and seclusion from CMS
                  central and regional offices. First, we obtained copies of report
                  worksheets for deaths that occurred between August 2, 1999, and
                  December 31, 2004, from CMS central office staff. We also obtained
                  copies of CMS central and regional office correspondence regarding
                  restraint and seclusion-related death investigations. After entering
                  information received from the CMS central office about deaths related
                  to restraint and seclusion into an electronic database, we asked regional
                  offices to indicate whether they had received information about any
                  additional deaths. We then entered any additional information into a
                  consolidated restraint and seclusion death database. We used this
                  consolidated database to conduct our analysis of hospital reporting and
                  to determine regional offices’ and State survey agencies’ responsiveness
                  to reported hospital deaths.
                  Collecting P&A and State survey agency documentation. We mailed a survey
                  and data request to all 50 State P&As and State survey agencies, as
                  well as those in the District of Columbia, Puerto Rico, and the
                  U.S. Virgin Islands.16 The survey requested information about P&As
                  and State survey agency communications with CMS central and
                  regional offices and the process of receiving and forwarding reports. We
                  received 53 completed surveys from P&As and 44 completed surveys
                  from State survey agencies for a response rate of 100 percent and
                  83 percent, respectively. In addition to the survey, we requested that
                  P&As and State survey agencies provide a list of all the reports they
                  received for behavior management restraint and seclusion-related
                  hospital deaths that occurred between August 2, 1999, and December
                  31, 2004. For each death report, we requested that P&As and State
                  survey agencies provide data such as patient name, facility name, and
                  date of death. We matched this information with CMS reports.
                  Additionally, we requested that P&As and State survey agencies


                    16 The CMS regional office in New York acts as the State survey agency for the U.S.
                  Virgin Islands.



OEI-09-04-00350   H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                  7
                                                                                               Report Template Version = 06-15-05_rev.08




    I N T R O D 
U C T              I O N


                  provide information about the source of the initial report and any
                  documentation that P&As and State survey agencies collected during
                  any investigation of a restraint or seclusion-related death. We received
                  29 completed data requests from P&As and 24 completed data requests
                  from State survey agencies. The remaining 24 P&As and 20 State
                  survey agencies indicated that they did not receive any reports of
                  hospital deaths related to restraint or seclusion during this period.
                  Collecting FDA documentation. We identified 18 behavior management-
                  related restraint and seclusion deaths that were included in the
                  Manufacturer and User Facility Device Experience (MAUDE) database.
                  The MAUDE database contains information about device-related
                  adverse events, including restraint deaths, reported after July 31, 1996.
                  We requested that FDA conduct a search of all medical device-related
                  events in hospitals that resulted in death between August 2, 1999, and
                  December 31, 2004. FDA searched for any hospital death report
                  associated with medical devices that (1) are categorized officially as
                  restraints, (2) are otherwise categorized but were used to restrain a
                  patient’s mobility or access to his/her body, and (3) were used while a
                  patient was in seclusion. We also identified hospital deaths related to
                  restraint and seclusion by searching the MAUDE online public
                  database. We used keywords and specific restraint-related product
                  codes for hospital deaths that were reported between August 2, 1999,
                  and December 31, 2004.
                  Comparing documentation among agencies. We received information about
                  104 behavior management-related deaths associated with restraint and
                  seclusion that occurred between August 2, 1999, and
                  December 31, 2004, from CMS, State survey agencies, P&As, and FDA.
                  The 104 deaths were comprised of 36 reports maintained by State
                  survey agencies, P&As, and FDA, and 68 reports contained in CMS’s
                  records.
                  Data limitations. This evaluation does not identify the proportion of
                  deaths related to restraint and seclusion that hospitals failed to report
                  directly to CMS as required. This would have required reviewing
                  thousands of records for patients who died during or following a hospital
                  stay to determine the proportion of hospital deaths that were associated
                  with the use of restraint or seclusion, and the proportion of hospital
                  deaths related to restraint and seclusion that were reported to CMS.
                  Due to time and resource constraints, we developed the alternative
                  strategy of comparing death reports received by CMS to those collected


OEI-09-04-00350   H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                  8
                                                                                                Report Template Version = 06-15-05_rev.08




    I N T R O D   U C T              I O N


                   by other agencies to determine hospital compliance with the reporting
                   requirement.

                   We did not gather directly from hospitals information about why they
                   did not report behavior management deaths related to restraint and
                   seclusion to CMS as required. Because many of the deaths occurred
                   years before our data collection, we determined that a number of
                   relevant records would have been archived and that hospital staff with
                   first-hand knowledge of the circumstances surrounding the restraint or
                   seclusion-related death would have been difficult to contact for
                   interviews.
                   We did not receive responses from 9 of the 53 State survey agencies. It
                   is possible that those nine State survey agencies had information about
                   hospital deaths related to restraint and seclusion that were not reported
                   directly to CMS. Because of this missing information, our analysis may
                   undercount the number of deaths that hospitals did not report as
                   required. Furthermore, the number of deaths related to restraint and
                   seclusion may be understated because our data collection was limited to
                   deaths that were documented by State survey agencies, P&As, and
                   FDA.

                   This study was conducted in accordance with the “Quality Standards for
                   Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency.




OEI-09-04-00350    H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                  9
                                                                                                        Report Template Version = 06-15-05_rev.08




       Δ         F I N D I N G S 


         Hospitals failed to report to CMS 44 of 104              Using CMS, State survey agency,
documented deaths related to restraint and seclusion              P&A, and FDA documentation, we
    between August 2, 1999, and December 31, 2004                 identified 104 behavior
                                                                  management deaths related to
                           restraint and seclusion that occurred between August 2, 1999, and
                           December 31, 2004. Hospitals did not report 44 of these deaths directly
                           to CMS as required. Hospitals must report to CMS any death that
                           occurs while a patient is restrained or in seclusion for behavior
                           management, or when it is reasonable to assume that a patient’s death
                           is the result of restraint or seclusion.17 As illustrated in Table 1, we
                           identified unreported behavior-management deaths related to restraint
                           and seclusion based on our analysis of information from State survey
                           agencies, P&As, and FDA, as well as in documentation maintained by
                           CMS.


                          Table 1: Behavior Management Restraint and Seclusion Deaths
                          Documented by CMS and Other Agencies
                          State survey agency-, P&A-, and FDA-documented deaths not reported
                                                                                                                                            36
                          by hospitals to CMS regional offices

                          CMS-documented deaths not reported directly by hospitals to CMS
                                                                                                                                             8
                          regional offices, but received second hand from other agencies

                          Total documented deaths not reported directly to CMS                                                              44

                          CMS-documented deaths reported directly by hospitals to regional offices                                          60


                              Total deaths documented by CMS and other agencies                                                            104

                        Source: Office of Inspector General analysis of CMS, State survey agency, P&A, and FDA death reports, 2005.


                           We identified 36 of the 44 unreported deaths by comparing CMS
                           documentation to that of State survey agencies, P&As, and FDA. We
                           forwarded all of the death reports we received from other agencies to the
                           respective CMS regional office to determine whether the deaths were
                           associated with restraint or seclusion for purposes of behavior
                           management and, therefore, reportable under the requirement.
                           According to CMS, 36 of these deaths were reportable. Based on our
                           review of CMS documentation, hospitals failed to report an additional
                           eight deaths directly to CMS, although CMS received the information
                           second hand from State survey agencies or P&As. Hospitals reported

                               17 42 CFR § 482.13(f)(7).




     OEI-09-04-00350       H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 10
                                                                                                       Report Template Version = 06-15-05_rev.08




       F   I N D I N G      S


                          six of the eight deaths to other entities (such as the State survey agency
                          or P&A) rather than directly to CMS. Hospitals did not report two of
                          the eight deaths to any agency. State survey agencies discovered these
                          deaths during a complaint investigation or routine survey and
                          forwarded the information to CMS.
                          Most deaths that hospitals reported directly to CMS were reported late
                          Of the 60 behavior management restraint and seclusion-related death
                          reports provided directly to CMS by hospitals, fewer than one-third
                          were reported to CMS before the close of business on the day after the
                          patient’s death, as required. The median number of days between a
                          patient’s death and hospitals’ notification to CMS was 7.18



  CMS and State survey agencies do not consistently              CMS regional offices and State
take action in response to reported deaths in a timely           survey agencies regularly fail to
                                                                 meet CMS’s timelines for taking
   manner, limiting their ability to address potentially
                                                                 action in response to deaths
                                     harmful conditions
                                                                 related to restraint and seclusion
                          that are reported by hospitals. CMS established timelines for regional
                          office and State survey agency responsibilities to ensure that
                          investigations proceed in a timely manner. As illustrated in Table 2,
                          neither regional offices nor State survey agencies consistently met these
                          timelines. This analysis is based on a total of 51 deaths that were
                          identified as behavioral management-related in CMS documentation
                          and were reported directly to CMS. We included only deaths that
                          occurred after March 23, 2000 (when CMS first issued these
                          requirements to regional offices and State survey agencies), in these
                          calculations.
                          State survey agencies did not provide regional offices with timely
                          information about relevant deaths in approximately 50 percent of cases.
                          Regional offices and State survey agencies authorized and started
                          complaint investigations later than required for approximately
                          one-third of the deaths for which documentation is available. In
                          addition, regional offices often failed to forward information about
                          deaths related to restraint and seclusion to P&As and CMS central
                          office within 2 days after the receipt of the death report, as required.



                              18 Regional offices received death reports, on average, 37 days after a patient’s death.




   OEI-09-04-00350        H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 11
                                                                                                             Report Template Version = 06-15-05_rev.08




    F    I N D I N G              S


                                CMS’s and State survey agencies’ delayed actions may limit their
                                effectiveness in addressing unsafe conditions in hospitals. State agency
                                surveyors must address underlying problems quickly because other
                                patients may be at risk for harm. Despite this, complaint investigations
                                were not started until after the required time period for more than
                                one-third of the reported deaths.


                   Table 2: Comparison of CMS-Established Timelines to Actual Death Report
                   Timelines for Behavioral Management-Related Deaths
                                                                                                   Policy               Actual
                                                                                                                                      Percentage of Deaths That
                   Action                                                                       Guideline              Median                                  19
                                                                                                                                     Did Not Meet the Guideline
                                                                                                  (Days)           Time (Days)
                   State survey agency to regional office                                               0
                                                                                                                             1.0                            49%
                   notification (N=31)                                                        (same day)
                   Regional office contact to authorization of
                                                                                                            2                2.0                            28%
                   investigation (N= 29)
                   Regional office authorization to State survey
                                                                                                            5                4.5                            33%
                   agency starting investigation (N=30)
                   Regional office contact to P&A notification
                                                                                                            2                 3                             38%
                   (N=47)
                   Regional office contact to central office (N=45)
                                                                                                            2                 6                             51%

                  Source: Office of Inspector General analysis of CMS restraint and seclusion-related death documentation, 2005.




                                CMS’s policy requires that regional offices notify P&As of relevant
                                restraint and seclusion deaths in hospitals within 2 working days. This
                                notification provides P&As with information that could allow them to
                                undertake their own investigations into the circumstances surrounding
                                a patient’s death. Regional offices’ untimely notification may make it
                                more difficult for P&As to initiate investigations while hospital staff
                                members are still available and familiar with the circumstances
                                surrounding the death.



        State survey agencies do not provide regular                 CMS requirements state that
              guidance on the reporting requirement                  State survey agencies are
                                                                     responsible for educating
                                hospitals about the reporting requirement. Despite this, only 23 of the


                                    19 Deaths were excluded from the analysis if the documentation was missing
                                information about the date on which one of the actions occurred. We used a 360-day
                                calendar to calculate the number of days between these actions (30 days for each month).



OEI-09-04-00350                 H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                         12
                                                                                                   Report Template Version = 06-15-05_rev.08




    F   I N D I N G     S


                      44 (52 percent) State survey agencies that provided data on this issue
                      indicated that, at some point, they had disseminated information about
                      the CoP to hospitals. In addition, only 8 of the 44 (18 percent) State
                      survey agencies provide reporting requirement information to hospitals
                      on an ongoing basis. According to P&A survey responses, hospitals’
                      lack of information about the reporting requirement may contribute to
                      their failure to comply.

                      Hospitals may not understand fully the mandatory reporting
                      requirement for deaths related to restraint and seclusion. Despite the
                      availability of written standards for the reporting requirement, CMS
                      regional offices noted that hospitals may have difficulty determining
                      whether the reporting requirement applies to a particular death. Six of
                      10 regional offices indicated that it is not always clear whether a patient
                      is being restrained for behavior management or for acute medical or
                      surgical care. The reporting requirement applies to situations in which
                      a patient is restrained or secluded for violent, aggressive, or assaultive
                      behavior. In cases in which patients are described as “confused,”
                      “disorientated,” or “uncooperative,” hospital staff may be unsure
                      whether the reporting requirement applies. In addition, hospital staff
                      may have difficulty determining when it is “reasonable to assume” that
                      a death that follows restraint or seclusion use was the “result of
                      restraint or seclusion.”



                                                               The CMS roster is of limited
CMS does not maintain comprehensive and reliable               value because it excludes
         information about reported restraint and              information about relevant
                        seclusion-related deaths               death reports and, in some
                                                               cases, includes deaths for which
                      there is no reporting requirement. We determined that deaths reported
                      by hospitals to CMS regional offices or discovered by other Federal or
                      State agencies are not always included in the central roster.

                      CMS’s requirement states: “The CMS Central Office contact will
                      maintain the central death report roster and a copy of all death report
                      worksheets collected.”20 We identified several problems with CMS’s
                      central roster and other documentation that central and regional offices
                      maintain about deaths related to restraint and seclusion:


                          20 CMS, “State Operations Manual,” Chapter 5, section 5240.




OEI-09-04-00350       H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 13
                                                                                                   Report Template Version = 06-15-05_rev.08




    F   I N D I N G     S 



                                       • CMS’s central roster does not include information about all
                                         deaths for which regional offices maintain documentation.
                                         These deaths may not have been included in the central roster
                                         because (1) the regional office did not forward the information
                                         to the central office; (2) the regional office forwarded the
                                         information, but it was not received by the appropriate central
                                         office contact; or (3) the central office contact received the
                                         information, but did not include it in the roster.

                                       • Although the reporting requirement only applies to deaths
                                         related to restraint or seclusion for behavior management,
                                         CMS’s central roster includes information about both
                                         behavioral and acute medical deaths without clearly
                                         distinguishing between the two. This may occur because the
                                         requirement does not state specifically that only behavioral
                                         deaths should be included in the central roster. As a result,
                                         CMS is not able to identify how many death reports in their
                                         central roster apply to the reporting requirement.

                                       • Almost one-third of the death reports maintained by CMS
                                         central and regional offices include no information about
                                         whether the death was associated with behavioral or medical
                                         restraint use. Regional offices may not have been able to make
                                         this determination at the time the initial death reports were
                                         received from the hospital. Regional offices did not update
                                         their records after staff determined whether the deaths were
                                         associated with behavioral or medical restraint use.

                                  •	      CMS’s documentation does not include information about
                                          reportable deaths that have been identified by other agencies.
                                          CMS regional offices do not communicate regularly with other
                                          Federal or State agencies to compare information about
                                          hospital deaths related to restraint and seclusion. Therefore,
                                          they remained unaware of a number of deaths to which the
                                          reporting requirement applies.




OEI-09-04-00350       H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 14
                                                                                                 Report Template Version = 06-15-05_rev.08




  Δ         R E C O M M E N D A T I O N S                                                               





                    To improve hospital reporting, the accuracy of data, and CMS’s timely
                    identification of deaths related to restraint and seclusion, CMS should:
                    Seek Legislation To Establish Intermediate Sanctions for Hospitals That Fail
                    To Report Deaths Related to Restraint and Seclusion Directly to CMS
                    CMS’s current sanction options are limited. When CMS discovers
                    previously unreported deaths, hospitals must submit a plan of
                    correction. If the deficiencies are not resolved satisfactorily, CMS’s only
                    recourse is to initiate termination proceedings. Instituting civil
                    monetary penalties for hospitals’ failure to report deaths related to
                    restraint and seclusion, as required, may give hospitals more incentive
                    to report these deaths directly to CMS in a timely manner.
                    Consider Regulatory Changes That Would Require Reporting of All Deaths
                    Related to Restraint and Seclusion
                    If hospitals have difficulty distinguishing between medical and
                    behavioral restraint, it may prevent them from reporting deaths as
                    required under the current reporting requirement. Requiring hospitals
                    to report deaths related to restraint and seclusion for both behavior
                    management and acute medical and surgical care may remove this
                    uncertainty and improve hospital compliance. In addition, clarifying
                    the language in the regulation that states that a hospital must report
                    deaths “where it is reasonable to assume that a patient’s death is a
                    result of restraint or seclusion” would eliminate further confusion.
                    Instruct its Regional Offices and the State Survey Agencies To Adhere to
                    Timelines
                    CMS will be able to respond more quickly to patient safety issues if it
                    can ensure that regional offices and State survey agencies adhere to its
                    guidelines. Regional offices should hold State survey agencies
                    accountable for reporting deaths and conducting complaint
                    investigations in a timely manner. Because hospitals rarely undergo
                    routine reviews to address restraint and seclusion death reporting,
                    timely complaint investigations are an important opportunity for
                    surveyors to ensure that hospital policies and procedures are
                    appropriate.




OEI-09-04-00350     H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 15
                                                                                               Report Template Version = 06-15-05_rev.08




    R   E C 0 M M E N D A T                          I O N              S


                  Encourage State Survey Agencies To Provide Ongoing Training to
                  Hospitals About the Mandatory Reporting Requirement
                  State surveyors could educate hospital staff on their reporting
                  obligations during routine onsite reviews or on an annual basis. P&A
                  survey responses suggest that hospitals’ lack of awareness of the
                  reporting requirement may contribute to their failure to report. P&As’
                  most common suggestion for improving hospital reporting of deaths
                  related to restraint and seclusion was for CMS to improve education
                  and communication about the requirement. CMS also could work with
                  the Joint Commission and the American Osteopathic Association to
                  make restraint and seclusion-related death reporting a more prominent
                  part of their hospital review process.
                  Instruct Regional Offices To Request Periodic Updates About Deaths
                  Related to Restraint and Seclusion From Other Federal and State Agencies
                  We found that State survey agencies, P&As, and FDA maintained records
                  of a number of deaths related to restraint and seclusion for which CMS
                  had no documentation. Improving communication with other agencies
                  that receive and document deaths related to restraint and seclusion would
                  help CMS identify some deaths that hospitals did not report directly to
                  them and maintain more comprehensive data.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS generally concurred with our recommendations. CMS is
                  considering proposing future changes that would simplify requirements
                  for hospital reporting of restraint and seclusion-related deaths. CMS
                  also indicated it will issue a Survey & Certification Memorandum to
                  ensure that regional offices and survey agencies receive written
                  instructions that reinforce the hospital death reporting timelines.
                  Furthermore, CMS will instruct its regional offices to contact
                  periodically survey agencies and other Federal agencies to request
                  information regarding restraint and seclusion-related deaths.

                  In response to our recommendation that CMS work with Congress to
                  establish intermediate sanctions for hospitals that fail to report deaths
                  related to restraint or seclusion, CMS indicated that this change would
                  be addressed most appropriately through legislative changes by
                  Congress. We modified the recommendation to clarify that CMS should
                  seek legislation that would allow CMS to impose intermediate sanctions



OEI-09-04-00350   H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 16
                                                                                                   Report Template Version = 06-15-05_rev.08




    R   E C O     M M E N D A T                          I O N               S


                      against hospitals that do not comply with the reporting requirement.
                      CMS’s comments are included in their entirety in the Appendix.




OEI-09-04-00350       H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 17
                                                                                                   Report Template Version = 06-15-05_rev.08




    A   P   P E N D   I X             ~           A
  Δ         A P P E N D I X

                        AGENCY COMMENTS




OEI-09-04-00350       H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 18
                                                                                               Report Template Version = 06-15-05_rev.08




    A P P E N D   I X 





OEI-09-04-00350   H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 19
                                                                                                   Report Template Version = 06-15-05_rev.08




    A   P   P E N D   I X             ~           B
  Δ         A C K N O W L E D G M E N T S                                                                  




                      This report was prepared under the direction of Paul A. Gottlober,
                      Regional Inspector General for Evaluation and Inspections in the
                      San Francisco regional office, and Deborah W. Harvey, Assistant
                      Regional Inspector General. Other principal Office of Evaluation and
                      Inspections staff who contributed include:

                      Camille Harper, Project Leader
                      China Eng, Program Analyst

                      Michael Henry, Program Analyst

                      Doris Jackson, Program Specialist

                      Tricia Davis, Director, Medicare Branch




OEI-09-04-00350       H O S P I TA L R E P O R T I N G   OF   D E AT H S R E L AT E D   TO   RESTRAINT   AND   SECLUSION                 20
